,J<

IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
NO. _ _ __

Shane LaGrange,
Petitioner,
-vs.United States of America,
Respondent.

CERTIFICATE OF FILING AND SERVICE
(8 th Cir. Case No. 19-2307)

I hereby certify that on the 18th day of June, 2021, I did file the Petition for Writ of
Certiorari and Appendix by causing an original thereof (per Order entered April 15,
2020) to be delivered, via first class United States mail, postage paid, to Clerk, Supreme
Court of the United States, 1 First Street N.E., Washington, D.C. 20543.

I hereby certify that on the 18th day of June, 2021, I served this Petition for Writ
of Certiorari and Appendix by causing one copy thereof to be delivered via first class
United States mail, postage paid to Matthew J. Cole, Assistant United States Attorney,
Northern District of Iowa, 111 Seventh Avenue SE, Box 1, Cedar Rapids, IA 52401, and
by causing one copy thereof to be delivered via first class United States mail, postage
paid to Solicitor General of the United States, Room 5614, Department of Justice, 950
Pennsylvania Ave., N. W., Washington, D.C. 20530-0001.

!>..,

~
WEBBL. WASSMER
Wass mer Law Office, PLC
5320 Winslow Road
Marion, IA 52302
Telephone: (319) 210-4288
e-mail: wassmerlaw@yaboo.com

ATTORNEY FOR PETITIONER
SHANE LaGRANGE

